                     U.S. Department of Agriculture

                        Office of Inspector General
                                   Northeast Region




           Audit Report
       Food and Nutrition Service
Special Supplemental Nutrition Program
   for Women, Infants, and Children
           State of New York




                           Report No. 27099-62-Hy
                                       March 2004
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL
                                              Northeast Region
                                                Suite 2-2230
                                     5601 Sunnyside Avenue, Stop 5300
                                       Beltsville, Maryland 20705-5300



DATE:           March 8, 2004

REPLY TO
ATTN OF:        27099-62-Hy

SUBJECT:        Food and Nutrition Service Special Supplemental Nutrition Program for Women, Infants,
                and Children in the State of New York

TO:             Frances E. Zorn
                Regional Administrator
                Food and Nutrition Service

ATTN:           Agostinho Nunes
                Audit Liaison
                Food and Nutrition Service

This report presents the results of our audit of the Special Supplemental Nutrition Program for

Women, Infants, and Children in the State of New York. Your response to the official draft,

dated February 23, 2004, is included as exhibit B with excerpts and the Office of Inspector

General’s position incorporated into the Findings and Recommendations section of the report.

Based on your response, management decision has been reached on all of the report’s

recommendations.       Please follow your agency’s internal procedures when forwarding

documentation for final action to the Office of the Chief Financial Officer.



We appreciate the assistance you and your staff provided to us during our review.


        //s//

REBECCA ANNE BATTS
Regional Inspector General
  for Audit
Executive Summary
Food and Nutrition Service, Special Supplemental Nutrition Program for Women,
Infants, and Children in the State of New York, (Audit Report No. 27099-62-Hy)

Results in Brief                 This report presents the results of the Office of Inspector General’s (OIG)
                                 audit of the Food and Nutrition Service’s (FNS) management of the Special
                                 Supplemental Nutrition Program for Women, Infants, and Children (WIC)
                                 and the Farmer’s Market Nutrition Program (FMNP) in the State of New
                                 York. The New York State programs provide over $279 million per year in
                                 benefits to approximately 455,000 participants. Our audit work also followed
                                 up on the recommendations we made in our May 1994 audit report on the
                                 New York WIC program.1

                                 The WIC program is targeted to serve low-income and nutritionally at risk
                                 women that are pregnant, breastfeeding, or non-breastfeeding postpartum;
                                 infants up to their first birthday; and children up to their fifth birthday. The
                                 FMNP is associated with WIC and provides supplemental foods sold at
                                 farmers markets, which includes such things as fresh fruits and vegetables.
                                 FNS oversees the States’ operations of these programs by performing periodic
                                 management evaluations to assess the accomplishment of program objectives.

                                 We evaluated FNS’ management of WIC and FMNP in the State of New
                                 York, focusing on fiscal years (FY) 2002 and 2003. Specifically, we
                                 followed up on findings and recommendations reported in our May 1994
                                 report, evaluated the management controls in New York’s current information
                                 system, examined corrective actions taken in response to findings in
                                 management evaluation reviews, and evaluated FNS’ review of the propriety
                                 of New York’s administrative costs. The New York Department of Health is
                                 the State Agency (SA) responsible for the administration of the WIC and for
                                 issuing FMNP benefits to eligible WIC participants.

                                 During the scope of our review, we found that FNS Northeast Regional Office
                                 (NERO) personnel used the nationally developed review guide when
                                 performing their evaluations of the New York WIC program. NERO used a
                                 guide the region developed when performing evaluations of the FMNP. We
                                 also noted that, overall, these review guides provided an adequate basis for
                                 evaluating ongoing program operations. However, we found that these guides
                                 did not require FNS personnel to identify and evaluate changes in program
                                 operations. For this reason, FNS did not evaluate the following material
                                 segments of New York’s WIC and FMNP.



1
    Audit Report No. 27031-29-Hy, Food and Nutrition Service, Special Supplemental Food Program for Women, Infants,
    and Children in the State of New York, issued May 5, 1994.
USDA/OIG-AUDIT No. 27099-62-Hy                                                                                        i
                   • The New York SA did not conduct management evaluations of contractors
                     who monitored the performance of WIC vendors in New York City since
                     FY 1999. Consequently, the SA had no assurance that contractors
                     adequately performed their responsibilities to monitor over 3,600 vendors
                     in New York City that redeem about $240 million annually in WIC
                     program funds.

                   • Local agencies in New York had not performed self-assessments of their
                     operations since FY 1999. Self-assessments allow a local agency to
                     critically evaluate its implementation of program operations. Since these
                     were not performed, the local agencies had not tested their compliance
                     with procedures and corrective action plans. Our 1994 report included a
                     recommendation to ensure that local agencies complete self-assessments.

                   • The New York City Regional Office did not evaluate the local agencies’
                     implementation of the FMNP in FY’s 2002 and 2003. During these
                     2 years approximately $4 million in FMNP funds were allocated annually
                     to local agencies in New York City for distribution to eligible participants.
                     In FY 2002, over $2.3 million of the allocated funds were redeemed.

                   We discussed the above weaknesses with SA officials who agreed with our
                   findings and developed corrective action plans. FNS NERO personnel need
                   to review these corrective action plans and ensure the plans are implemented.
                   In order to provide adequate oversight of the New York WIC and FMNP,
                   FNS needs to implement procedures that require personnel to identify and
                   evaluate changes in program operations.

                   We found that FNS and the SA had implemented 39 of 40 recommendations
                   from our May 1994 audit report (see exhibit A). Nothing came to our
                   attention to indicate concerns with the management controls in New York’s
                   current information system or FNS’ review of the propriety of New York’s
                   administrative costs.

Recommendations
in Brief           FNS NERO needs to develop and implement procedures to periodically
                   update the review guides used by FNS personnel to evaluate changes in WIC
                   and FMNP operations. FNS NERO should confirm that: (1) contractors that
                   monitor vendor operations in New York City are evaluated, (2) local agencies
                   are in compliance with self-assessment requirements regarding compliance
                   with procedures and corrective actions plans, and (3) the FMNP in New York
                   City is evaluated.

Agency Response    In FNS NERO’s response to the official draft of the report, dated
                   February 23, 2004, the agency agreed with the recommendations outlined in
                   the report. On October 1, 2003, FNS NERO implemented procedures to
                   periodically update the review guides to identify and evaluate changes in
USDA/OIG-AUDIT No. 27099-62-Hy                                                                 ii
